Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



  UNITY HEALTH CARE, INC.,
 CLAIMED SOME UNALLOWABLE
 COSTS AGAINST RECOVERY ACT
           GRANTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                       Kay L. Daly
                                               Assistant Inspector General

                                                        June 2013
                                                      A-03-11-03301
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY
BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254b. The Health Center Program provides comprehensive primary health care services to
medically underserved populations. Within the U.S. Department of Health and Human Services
(HHS), the Health Resources and Services Administration (HRSA) administers the Health
Center Program. The Health Center Program provides grants to nonprofit private or public
entities that serve designated medically underserved populations and areas, and vulnerable
populations composed of migrant and seasonal farm workers, homeless individuals, and
residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, which included $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) grants,
Capital Improvement Program (CIP) grants, and Facilities Investment Program (FIP) grants.

Unity Health Care, Inc.

Unity Health Care, Inc. (Unity), a federally qualified health center, was founded in 1985. Unity
provides primary health care services to homeless, underserved, uninsured, and working low-
income individuals and families. In 2010, Unity served approximately 82,000 individuals at 29
service sites in the District of Columbia. HRSA awarded Unity three Recovery Act grants
totaling $15,448,449: an IDS grant of $948,449 in March 2009, a CIP grant of $2,500,000 in
June 2009, and a FIP grant of $12,000,000 in October 2009. In 2010, Unity acquired two
additional Recovery Act grants totaling $422,995 through a merger with Columbia Road Health
Services: an IDS grant of $104,628 and a CIP grant of $318,367.

Objective

Our objective was to determine whether costs claimed by Unity were allowable under the terms
of the grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $3,243,405 in claimed costs that we reviewed, $2,170,162 was allowable under the terms
of the grants and applicable Federal regulations. However, Unity claimed unallowable costs of
$79,904 for a financial consultant. In addition, we did not determine the allowability of

                                               i
$993,339 in salary and fringe benefit costs because Unity’s documentation did not include
personnel activity reports to reflect the required after-the-fact distribution of salaries.

RECOMMENDATIONS

We recommend that HRSA:

   •   ensure that Unity refunds to the Federal Government $79,904 related to the CIP grant,

   •   either require Unity to refund to the Federal Government $993,339 related to the IDS
       grant or work with Unity to determine whether any of the $993,339 was allowable, and

   •   require Unity to take corrective action to ensure that it maintains personnel activity
       reports that reflect an after-the-fact determination of the actual activity of all employees
       who worked on Federal awards.

UNITY HEALTH CARE, INC., COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Unity disagreed with our finding that it claimed
unallowable consultant costs. Unity said that costs for financial consulting services were
included in its CIP budget, which HRSA approved in the Notice of Grant Award. Unity also
disagreed with our finding that the timecard system did not reflect an after-the-fact distribution
of the actual activity of employees charged to the IDS grant. However, Unity stated that it
strived to continuously improve systems and procedures to better demonstrate compliance with
the time and effort requirements.

We maintain the validity of our findings and recommendations. The Notice of Grant Award
states that HHS grantees must comply with the terms and conditions contained in the HHS
Grants Policy Statement. The Grants Policy Statement specifically lists “[c]onsultant fees not
related to actual construction” as unallowable costs. We reviewed Unity’s timecards, job
descriptions, and personnel action forms used to distribute labor costs. However, these
documents did not reflect after-the-fact determination of the actual activity of each employee.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
In written comments on our draft report, HRSA concurred with our recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
           The Health Center Program ...............................................................................1
           American Recovery and Reinvestment Act Grants ...........................................1
           Unity Health Care, Inc. ......................................................................................1

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
            Objective ............................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS .......................................................................3

       UNALLOWABLE COSTS AND POTENTIALLY UNALLOWABLE COSTS ........4
           Unallowable Consultant Costs ...........................................................................4
           Potentially Unallowable Salaries and Wages ....................................................4

       RECOMMENDATIONS ..............................................................................................5

       UNITY HEALTH CARE, INC., COMMENTS ............................................................5

       OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................5

       HEALTH RESOURCES AND SERVICES
         ADMINISTRATION COMMENTS ........................................................................6


APPENDIXES

       A: UNITY HEALTH CARE, INC., COMMENTS

       B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254b. The Health Center Program provides comprehensive primary health care services to
medically underserved populations. Within the U.S. Department of Health and Human Services
(HHS), the Health Resources and Services Administration (HRSA) administers the Health
Center Program.
The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, homeless individuals, and residents of public housing.
Health centers funded by HRSA are community-based and patient-directed organizations
meeting the definition of “health center” under 42 U.S.C. § 254b(a).

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, which included $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.
HRSA awarded a number of grants using Recovery Act funding in support of the Health Center
Program, including Increased Demand for Services (IDS) grants, Capital Improvement Program
(CIP) grants, and Facilities Investment Program (FIP) grants.
Unity Health Care, Inc.

Unity Health Care, Inc. (Unity), a federally qualified health center, was founded in 1985. Unity
provides primary health care services to homeless, underserved, uninsured, and working low-
income individuals and families. In 2010, Unity served approximately 82,000 individuals at 29
service sites in the District of Columbia.

HRSA awarded Unity three Recovery Act grants totaling $15,448,449:

   •   an IDS grant of $948,449, awarded March 27, 2009, to increase staffing and extend
       existing services;

   •   a CIP grant of $2,500,000, awarded June 25, 2009, for phase I renovations of the Upper
       Cardozo Health Center; and




                                                1
   •    a FIP grant of $12,000,000, awarded October 19, 2009, to construct the Anacostia Health
        Center and for phase II of the renovations of the Upper Cardozo Health Center.

In 2010, Unity acquired two additional Recovery Act grants totaling $422,995 through a merger
with Columbia Road Health Services: an IDS grant of $104,628, awarded July 15, 2010, and a
CIP grant of $318,367, awarded July 19, 2010. As of December 31, 2010, Unity had not started
the project funded by the Columbia Road Health Services CIP grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Unity were allowable under the terms
of the grants and applicable Federal regulations.

Scope

We reviewed $3,243,405 of the $3,603,712 that Unity claimed against its Recovery Act grants:
$2,364,894 based on a judgmental sample that we reviewed for allowability and $878,511 for
which we performed a limited review for the distribution of salaries. We did not review
$360,307. We limited our review because the results of our judgmental sample did not warrant
an increase in substantive testing. Consequently, we do not provide any assurance on the costs
we did not review. We performed this review in response to a request from HRSA. We limited
our review of internal controls to those that pertained to our objective.
We performed fieldwork at Unity’s office in the District of Columbia in January 2011.

Methodology
To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Unity’s Recovery Act grant application packages and HRSA’s Notices of Grant
        Award;

   •    reviewed Unity’s Office of Management and Budget (OMB) Circular A-133 audited
        Consolidated Financial Report for fiscal years 2008 and 2009;

   •    interviewed Unity management to gain an understanding of its accounting systems and
        internal controls;

   •    reviewed Unity’s Office of Finance’s policies and procedures;

   •    compared total expenditures to funds drawn from Recovery Act grants;



                                                2
   •   reviewed detailed support for a judgmental sample of 49 transactions accounting for
       $2,364,894 of the amount claimed as of December 31, 2010: the 17 largest transactions
       claimed on the CIP and FIP grants, 20 IDS transactions for salaries and fringe benefits,
       and an additional 12 CIP transactions for payments to a financial consultant;

   •   reviewed the distribution of all salaries and fringe benefits, totaling $939,339, claimed
       under the IDS grant (including $60,828 that we reviewed as part of our judgmental
       sample and $878,511 for which we reviewed only the distribution records), to determine
       whether they were supported by personnel activity reports;

   •   traced sample transactions from Unity's expenditure ledger to the supporting source
       documents, which included third-party invoices, internal accounts payable check requests,
       and checks;

   •   reviewed personnel authorization, payroll, time, and attendance records for the IDS
       grants;

   •   reviewed Unity’s procurement contracting process used for all eight CIP or FIP
       construction and renovation project contracts;

   •   reviewed the deliverables of a comprehensive financing assistance contract for the Upper
       Cardozo project;

   •   reviewed the quarterly performance progress reports for the Unity IDS grant from June
       2009 through December 2010 and a HRSA CIP Site Review Report; and

   •   discussed the results of our audit with Unity officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $3,243,405 in claimed costs that we reviewed, $2,170,162 was allowable under the terms
of the grants and applicable Federal regulations. However, Unity claimed unallowable costs of
$79,904 for a financial consultant. In addition, we did not determine the allowability of
$993,339 in salary and fringe benefit costs because Unity’s documentation did not include
personnel activity reports to reflect the required after-the-fact distribution of salaries.




                                                 3
UNALLOWABLE COSTS AND POTENTIALLY UNALLOWABLE COSTS
Unallowable Consultant Costs

HRSA incorporates HHS’s Grants Policy Statement (Grants Policy) in its Notice of Grant
Awards. Exhibits 12 and 13 of the Grants Policy (page II-103 and 104) describe allowable and
unallowable costs for grants awarded for the construction and modernization of facilities,
including CIP awards. Specifically, Exhibit 13, “Unallowable Costs and Activities Under
Construction Grants,” states “[c]onsultant fees not related to actual construction” are unallowable
costs. Further, HRSA’s guidance to applicants for CIP grants under the Recovery Act
(Announcement Number HRSA 09-244) states that “… consultant fees that are not related to the
administration of the technical aspects of the proposed project” are unallowable.

Unity claimed $79,904 of unallowable CIP grant costs for a contract with a financial consultant
for financing services. Unity entered into the contract with the financial consultant on
June 2, 2008, and amended the contract on November 24, 2008. Under the amended contract,
the financial consultant provided Unity with services that would enable it to obtain suitable low-
cost financing for the Upper Cardozo renovation project. The financial consultant’s services
were not related to actual construction or to technical aspects of the renovation project funded by
the CIP grant.

Unity officials confirmed that Unity paid the consultant approximately $109,000, including
$79,904 of Recovery Act funds from its CIP grant award. Unity claimed these financing
consultant fees as technical assistance; however, only consultant fees actually related to
construction are allowable.

Potentially Unallowable Salaries and Wages
Federal cost principles require that the distribution of salaries and wages must be supported by
personnel activity reports (2 CFR part 230, Appendix B, § 8.m(2)). 1 The activity reports
maintained by nonprofit organizations must: (a) reflect an after-the-fact distribution of the actual
activity of each employee; (b) account for the total activity for which each employee is
compensated; (c) be signed by the employee or by a responsible supervisory official having
firsthand knowledge of the activities performed; and (d) be prepared at least monthly and
coincide with one or more pay periods.
We could not determine the allowability of $993,339 in salary and fringe benefit costs that Unity
charged to the IDS grant because it did not adequately document those costs. Specifically,
Unity’s personnel activity reports did not reflect an after-the-fact determination of the actual
activity for employees whose salary and fringe benefit costs were charged to the grant. Unity’s
biweekly timesheets for these employees showed the employees’ times of arrival and departure,
the total daily hours the employees worked, and their supervisors’ approvals. Unity officials said
that the employees worked on the IDS grant. However, the timesheets did not reflect an after-
the-fact distribution of the actual activity because they showed neither the grant(s) an employee
worked on, nor the activities performed.

1
    OMB Circular A-122, Cost Principles for Non-Profit Organizations, was relocated to 2 CFR part 230.

                                                         4
RECOMMENDATIONS
We recommend that HRSA:

   •   ensure that Unity refunds to the Federal Government $79,904 related to the CIP grant,

   •   either require Unity to refund to the Federal Government $993,339 related to the IDS
       Grant or work with Unity to determine whether any of the $993,339 was allowable, and

   •   require Unity to take corrective action to ensure that it maintains personnel activity
       reports that reflect an after-the-fact determination of the actual activity of all employees
       who worked on Federal awards.

UNITY HEALTH CARE, INC., COMMENTS

In its written comments on our draft report, Unity disagreed with our finding that it claimed
unallowable costs for the financial consultant. Unity said that costs for the financing services
were included in its CIP budget, which HRSA approved in the Notice of Grant Award, and that
the terms and conditions of the specific grant award, not the general policy statements, should be
used to determine allowability of a particular cost.

Unity also disagreed with our finding that the timecard system did not reflect an after-the-fact
distribution of the actual activity of employees whose salary and fringe benefit costs were
charged to the IDS grant. Unity stated that those employees performed only one function.
Therefore, all of their time was appropriately distributed to the IDS grant by the timecard system.
Moreover, Unity said that its timecards represented the employees’ certifications that they
performed the duties detailed in their job descriptions, which described the activities of the
employees. However, Unity stated that it strived to continuously improve systems and
procedures and to implement changes to better demonstrate compliance with the time and effort
requirements of the OMB Circular.

Unity’s comments are included as Appendix A. We did not include the enclosures because they
contained confidential information and personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain the validity of our findings and recommendations. In the Terms and Conditions of
the Notice of Grant Award, HRSA states that HHS grantees must comply with all terms and
conditions outlined in their grant award, including terms and conditions contained in HHS Grants
Policy. The Grants Policy specifically lists “[c]onsultant fees not related to actual construction”
as unallowable costs. Obtaining financing is not related to actual construction.

We reviewed Unity’s timecards, job descriptions, and personnel action forms used to distribute
labor costs. However, these documents did not reflect after-the-fact determination of the actual
activity of each employee.



                                                 5
HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                            6
APPENDIXES
                                                                                             Page 1 of7




          APPENDIX A: UNITY HEALTH CARE, INC. COMMENTS




                 1220 12th Street, SE, Suite 120 ·Washington, DC 20003




November 7, 2012


Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
DHHD/Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 191 06

Report Number: A-03-11-03301

Dear Mr. Virbitsky:

I am in receipt of your draft report entitled "Unity Health Care, Inc., Claimed 

Unallowable Salaries and Wages and Consultant Fees Against Recovery Act Grants". 

On behalf of the Board of Directors of Unity Health Care, Inc. (Unity), I want to thank 

you for the opportunity to respond and provide comments on the draft recommendatkms - -----------------­ 

included in the report. 


Unity is very appreciative for access to funds through the Recovery Act Grants and the 

resulting benefits for the patients we serve within the District of Columbia. We feel very 

strongly that Unity met the obligations set forth in the applicable notices of grant awards, 

achieved the objectives of the grants, and appropriately utilized the federal dollars that 

were entrusted to us. We disagree with the findings that Unity claimed or possibly 

claimed unallowable costs toward the grants and we do not concur with recommendations 

to refund money to the Federal Government. 


Please see the attached detailed response to each recommendation. 


Please let me know if you have further questions or need additional information. I can be 

reached at (202) 715-6562 or vkeane(@,unitvhealthcare.org. 





sil~~
Vincent A. Keane
President and Chief Executive Officer
                                                                                          Page 2 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-1 I-03301

Recommendation 1 to HRSA: Ensure that Unity refunds to the Federal Government
$79,904 related to the Capital Improvement Program ("CIP") grant.

We do not agree with this recommendation as the proposed payments to                 an
organization Unity contracted with to provide assistance in obtaining financing to
complete the construction project in question, were included in Unity's approved CIP
budget and were incurred in fintherance of the purposes of the CIP program.
Accordingly, the costs were allowable under OMB Circular A-122 and Unity asks that
this recommendation be removed.

A.     Background

Unity's largest site, the Upper Cardozo clinic, was built in 1972 and except for
maintenance and minor renovations, was largely untouched in the 40 years since it was
built. For a number of years prior to passage of ARRA, Unity tried without success to
raise or borrow sufficient funds, well in excess of$10.0 million, to renovate the Upper
Cardozo site. With the passage of ARRA, sufficient funds through the CIP and FIP
programs became available. These funds did not eliminate the need to locate other
sources of funds but did provide enough funding to jump-start what turned out to be a
construction project costing in excess of$17.0 million.

Unity's first CIP application, accepted by HRSA, proposed leveraging $2.5 million in
CIP funding with approximately $12.5 million in non-federal funds to renovate the Upper
Cardozo building. When FIP funding became available, Unity proposed to HRSA a more
ambitious renovation of the Upper Cardozo building by revising its CIP project scope to
include additional renovation activities for the least costly part of the project­
specifically, the 4th floor, basement, and penthouse -for a total approved budget of
$5,869,548. The federal share remained at $2.5 million. Unity designated this work as
Phase 1. Unity proposed to utilize $12.0 million in FIP funds to complete the
considerably more complicated work necessary to renovate the 15\ 2nd, and 3rd floors,
which Unity designated as Phase 2. These proposals were accepted by HRSA and are
reflected in the various Notices of Grant Award.

As part of the revisions to the CIP project, Unity provided HRSA with a revised budget
including a section on Administrative and         costs in the amotmt of$301,054 which
contained the fin1ding to engage                 As described in the attached budget
nanative,Unity proposed to "contract with                  to assist with planning and
obtaining financing for the renovation. . .              will assist Unity with accessing
capital and working with financing organization to access tax credits and other financing
instruments." See Attachment A, consisting of Unity's Budget Justification Narrative
and Form 424C. In a Notice of Grant Award dated October 29,2009, HRSA approved
the revised budget in Item 1 of the "Grant Specific Terms." See Attachment B, HRSA
NGA No.6 C81CS14084-0l-Ol (10/29/2009).



                                                                                            1

                                                                                                            Page 3 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-11-03301

Finally, as noted in the draft report, Unity p a i d - $79,904 from Unity's CIP
grant to assist Unity in obtaining low cost financing for the Upper Cardozo project.

B.      T h e - payments were an allowable cost

There is nothing in the draft report to support the assertion that Unity's payments to
-              were in some way unallowable except a claim that the payment for such
activities are, in all cases, unallowable under the provisions of the HHS Grants Policy
Statement ("HHS GPS"). This asse1iion is a misreading of the HHS GPS provisions
cited in the draft.

Specifically, the introduction to the section on grants for the "Construction and
Modernization of Facilities" cited in the draft report states on page II-I 03:

        Exhibits 12 and 13 indicate types of costs and activities generally
        allowable and unallowable under HHS construction grants. . . . The lists
        are not all-inclusive. Program guidelines and other terms and conditions
        ofthe award should be consulted/or the specific costs allowable under a
        particular program or grant.

(emphasis added.) As the emphasized language makes clear, the HHS GPS is a statement
of general policy. The terms and conditions of the specific grant award, not the general
policy statements in the HHS GPS, should be used to determine whether a particular cost
is allowable or not. 1

Here, Unity fully disclosed the nature and purpose of the              contract and that it
intended to use CIP funds to pay for activities under that contract. HRSA, the awarding
agency, approved that use of funds and, accordingly, the payments t o - are an
allowable cost under OMB Circular A-122.

Recommendation 2 to HRSA: Either require Unity to refund to the Federal
Government $993,339 related to the IDS Grant or work with Unity to determine whether
any of the $993,339 was allowable.

Unity does not agree with this recommendation as the personnel costs in question were
allowable and adequately documented. Accordingly, Unity asks that this
recommendation be removed.

A.      Background

In response to likely increases in the uninsured and underinsured populations served by
Section330 grantees, HRSA made supplemental grants to all Section 330 Health Centers
1
  The statement that the specific terms and conditions of an award take precedence over provisions of the
HHS GPS is wholly unremarkable. For example, the HHS GPS states on page II-2, "award-specific
requirements take precedence over Pmi II of the HHS GPS."

                                                                                                            2

                                                                                           Page 4 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-11-03301

like Unity under the Increased Demand for Services ("IDS") program starting in March
of2009. Health Centers could submit an application to use IDS funding for any of the
following purposes: adding new providers, expanding hours of operation, and/or
expanding existing health center services.

Unity proposed to use IDS funds to 1) increase the hours of operation at the Anacostia
Health Center, located in the District of Columbia's Ward 8, which had and still has an
acute need for health care services, by 7 hours a week; and 2) provide funding for
approximately 10 needed positions (21 FTEs over the two year project period) primarily
related to Unity's implementation of Electronic Medical Records (EMR) and its Re-entry
Health Center, which facilitates the re-entry of ex-offenders into society by providing
them with a medical home. The project period was for two years starting on March 27,
2009, and ending on March 26, 2011.

Unity acted consistently with its IDS grant application and used these funds to
successfully expand services in the District in the following ways:

   • 	 Unity extended the hours at the Anacostia Health Center by 7 hours a week by
       adding two evening sessions during the week and two Saturday sessions per
       month. These extended hours were available to new and existing patients, not
       included in the patient counts, enabling more appropriate use of primary care
       services as an alternative to emergency room care. This substantial increase in
       hours was achieved through hiring new and retaining existing health center staff.
       Those extended hours continue to this day due to the jump start provided by the
       IDS funding.

   • 	 Unity added a provider and medical assistant team to its Re-entry Health Center
       to provide expanded services to ex-offenders returning to the District of Columbia
       from prisons and jails. The Re-entry Health Center has since moved to a new,
       larger location due to the increased demand for services, staff, and space.

   • 	 Unity hired or retained three staff members (3 FTEs) who were responsible for
       implementation of our EMR system. These staff members were integral to
       completing a successful EMR implementation at 23 different sites, which
       involved the customization of the EMR to meet Unity's needs and training over
       160 providers and 870 total employees to utilize the system. After the successful
       go-live of both the practice management and electronic medical record
       components, the EMR team focused on improvements and maintenance that
       allowed for long-term use of the system, including meeting Meaningful Use
       requirements. The investment in these staff members has resulted in a strong
       foundation that has supported increased access and utilization, which will
       continue to positively impact our patient population, as well as provide
       opp01iunities for advancement organization-wide.



                                                                                           3

                                                                                              Page 5 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-11-03301

     • 	 Unity hired two staff members (2 FTEs) for our centralized Patient Scheduling
         Center (PSC) that began operation in Spring 2009. Our network of health centers
         now utilizes a central scheduling line that has resulted in increased scheduling and
         utilization at our sites. Due to the expanded capacity of the central scheduling
         line, including the IDS-funded positions, the average hold time for patients who
         call the PSC has been reduced from 4.2 minutes in 2009 to 2.4 minutes in 2012.
         This increased access to appointment scheduling has positively impacted patient
         satisfaction because we needed to match increased hours and access with
         equivalent support for patient scheduling to ensure that appointment slots were
         available and, more impmiantly, utilized.

     • 	 Unity used IDS funding to support the hiring of two nurses to support our patient­
         centered medical home (PCMH) teams. Unity needed to add these positions to
         continue its work toward PCMH recognition, but did not have the funding to do
         so. Unity added these nurse positions in order to provide the care management
         and education necessary to effectively manage patients with chronic conditions,
         such as diabetes, asthma, and hypertension. Unity intends to submit our
         organizational application to NCQA for PCMH recognition by the end of2012.
         These nursing positions positively affect our ability to move forward on this
         important project.

In total, Unity retained or hired 11.55 FTEs on an annual basis over the two-year project
period with support from IDS funding. The positions that were created or saved have
made a significant impact on access for our patients and on Unity's stability. As a result
ofiDS funding, Unity was able to serve 2,225 new, unduplicated patients during a
financially difficult time when expansion would not otherwise have been possible. Of the
new patients served, 1,225 were pmiicularly vulnerable because they were uninsured. In
terms of patient visits, IDS funding supported over 5,500 visits for these new,
unduplicated patients alone. Consistent with the goals of the Health Center program, the
IDS funding made a significant and positive impact on the health of the residents of the
District of Columbia.

B.       Documentation of Personnel Cost under OMB Circular A-122

The draft audit finding stated that "we did not determine the aHowability of$993,339 in
salary and fringe benefit costs because Unity's documentation did not include personnel
activity reports to reflect the required after-the-fact distribution of salaries." We do not
agree that the distribution of the time of our employees charged to the IDS grant was
inadequately documented under OMB Circular A-122 since 1) all Unity employees
record their time after the fact every pay period, if not more frequently, through Unity's
Automatic Data Processing (ADP) timecard system and 2) the employees charged to the
IDS grant were performing only one function and therefore all of their time was
appropriately distributed to the IDS grant via the timecard system. That is, there was no
need for an additional narrative or some other notation on the timecard system describing


                                                                                                4

                                                                                                            Page 6 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-11-03301

the IDS employee's tasks because they all performed tasks consistent with the grant
application and their job descriptions.

OMB Circular A-122 requires that the distribution of salaries and wages to awards be
supported by personnel activity reports for all staff members whose compensation is
charged directly to awards. The personnel activity reports must satisfy the following
standards:
    1. 	 reflect an after-the-fact determination of the actual activity of each employee;
    2. 	 account for the total activity for which employees are compensated;
    3. 	 be signed by the employee or by a supervisory official with first-hand knowledge
         of the employee's activities; and
    4. 	 be prepared at least monthly and coincide with pay periods.
2 C.F.R. Part 230, App. B, para. 8.m.2(a)-(d).
Unity utilizes ADP's timekeeping and payroll system. Through that system, Unity
collected information from each IDS employee, thereby meeting the requirements of the
Circular.

Specifically, all Unity employees record their time after-the-fact via a biometric hand
punch time clock or an electronic time card. All Unity employees are required to enter
their time at least on a bi-weekly basis for the time worked during the previous two week
period. The submission of the electronic time card by the employee represents the
employee's certification that they were on the job or took paid time off. These timecards,
moreover, represent the employee's certification that they performed their job duties and
those job duties are detailed in each employee's job descriptions. 2 Finally, the time
captured/reported for each employee is approved by that employee's supervisor. 3

We believe that Unity's ADP timecard system meets the requirements ofOMB Circular
A-122 for the following reasons:

    1. 	 The timecard is completed after-the-fact by the employee every two weeks; thus
         meeting the requirement for contemporaneous documentation of time;



2
 The job descriptions describe the activities of the employees. Page 14 of Unity's Employee Handbook
which represents Unity's persormel policies and hiring practices approved by the Unity Health Care, Inc.
Board of Directors states that "job descriptions shall contain the following information: position title,
person to whom accountable, major areas of responsibility, principal activities, qualifications, and
attendance expectations."
3
 A list of the 20 employees charged to the IDS grant over the two-year project period is found in
Attachment C. We selected a number of employees fi·om the list in Attachment C and have provided a
sampling of their timesheets and their position descriptions in Attachment D. We ask that these
attachments be kept confidential as they contain personally identifiable or proprietary information.

                                                                                                            5

                                                                                              Page 7 of7

Unity Health Care, Inc.
Response to Draft Report from the Office of Inspector General
Report#: A-03-11-03301

   2. 	 The timecard accounted for all of the activity ofthe IDS employees; as noted
        above, these employees only performed the function described in their position
        descriptions and those functions were performed in furtherance of the IDS grant
        purposes; thus there was no need for more descriptive or detailed documentation
        of the activity of the IDS employees;

   3. 	 The timecard was completed by the employee via an electronic timecard system
        and approved by the employee's supervisor, thus meeting the signature
        requirement;

   4. 	 The timecard was completed bi-weekly coinciding with payroll, thus meeting the
        requirement that the timecards be completed at least monthly.

In short, we believe that Unity adequately documented the time of the employees charged
to the IDS grant as required by OMB Circular A -122 and ask that this finding be
removed.

Recommendation 3: HRSA require Unity to take corrective action to ensure that it
maintains personnel activity reports that reflect an after-the-fact determine of the actual
activity of all employees who worked on Federal awards.

Unity strives to continuously improve systems and procedures and is actively engaged
with ADP to implement changes to better demonstrate compliance with the time and
effort requirements of the OMB Circular. Unity has already begun a review of its grant
doctmlentation systems and procedures and intends to implement any changes that will
improve documentation of Unity's compliance with regulations.




                                                                                              6

                                                                                                    Page 1 of2




APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS 





                                                                            Health Resources and Services
     DEPARTMENT OF HEALTH &. HUMAN SERVICES                                 Administration


                                                                            Rockville MD 20857

                                            MAY 1- 6-·2913



 TO: 	        Inspector General

 FROM : 	     Administrator

 SUBJECT: 	 OIG Draft Report : "Unity Health Care Inc., Claimed Some Unallowable Costs
              Against Recovery Act Grants'' (A-03-11-03301)

 Attached is the Health Resources and Services Administration's (HRSA) response to the OIG's
 draft report, "Unity Health Care Inc., Claimed Some Unallowable Costs Against Recovery Act
 Grants" (A-03-11-03301 ). If you have any questions, please contact Sandy Seaton in HRSA's
 Office ofFederal Assistance Management at (301) 443-2432 .



                                           ~/~
                                           Mary K. Wakefield, Ph.D., R.N.

 Attachment
                                                                                                        Page 2 of2




 Health Resources and Services Administration's Comments on the OIG Draft Report­
"Unity Health Care Inc., Claimed Some Unallowable Costs Against Recovery Act Grants"
                                   (A-03-ll-03301)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (OIG)
recommendations are as follov-.:s:

OlG Recommendation:

We recommend that HRSA ensure that Unity refunds to the Federal Government $79,904 related
to the CIP grant.

HRSA Response:

HRSA concurs with the OIG recommendation. HRSA will work with Unity Health Care Inc.,
(U nity) to determine if any Capital Improvement Program (CIP) grant funds need to be refunded
to the federal government.

OIG Recommendation:

We recommend that HRSA either require Unity to refund to the Federal Government $993,339
related to the IDS grant or work with Unity to determine whether any of the $993 ,339 was
allowable .

HRSA Response:

HRSA concurs with the OIG recommendation. HR SA will work with Unity to determine
if any Increased Demand for Services (IDS) grant funds need to be refunded to the federal
government.

OIG Recommendation:

We recommend that HRSA require Unity to take corrective action to ensure that it maintains
personnel activity reports that reflect an after-the-fact determination of the actual activity of all
employees who worked on Federal awards .

HRSA Response:

HRSA concurs with the OlG recommendation. HRSA will work with Unity to ensure that they
maintain personnel activity reports that reflect an after-the-fact determination of the actual
activity for each employee who works on federal awards .
